CERTIFICATE OF SERVICE
NO. TBD
Arlane James, In Re: Willie Gibbons et al.
Petitioner,
v.
Noah Bartlet
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ARLANE
JAMES, IN RE: WILLIE GIBBONS ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true
and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Marvin L. Freeman
Office of Attorney General of New Jersey
25 Market Street, FL 8
Trenton, NJ 08625
marvin.freeman@dol.lps.state.nj.us
Counsel for Noah Bartelt and all other
Defendants-Appellees Below

Lucas DeDeus

January 4, 2021
SCP Tracking: Ransom-3000 Atrium Way, Suite 200-Cover White

